No

IN THE
SUPREME COURT OF THE UNITED STATES
Lisa Marie Smith PETITIONER
Vs.

School District of Philadelphia

Kelly Services Inc. RESPONDENTS(S)

PROOF OF SERVICE
I, Lisa M. Smith, do swear or declare that on this date of September 12, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PA UPERIS and PETITION WRIT OF CERTIORARI on
each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial Carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Eric J. Janson Esq. Seyfarth Shaw LLP
975 F. Street, N.W.
Washington DC 2004
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 23,2020

Lisa M. Smith/s/ Pro Se litigant

